<html>
<title> - COMMUNITY-BASED SOLUTIONS TO DRUG-RELATED CRIME IN RURAL AMERICA</title>
<body><pre>[Senate Hearing 110-870]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-870
 
    COMMUNITY-BASED SOLUTIONS TO DRUG-RELATED CRIME IN RURAL AMERICA

=======================================================================


                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 5, 2008

                               __________

                          ST. ALBANS, VERMONT

                               __________

                          Serial No. J-110-126

                               __________

         Printed for the use of the Committee on the Judiciary



                  U.S. GOVERNMENT PRINTING OFFICE
51-815                   WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
           Stephanie A. Middleton, Republican Staff Director
              Nicholas A. Rossi, Republican Chief Counsel

                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    46

                               WITNESSES

Baker, Angela S., Division of Alcohol and Drug Abuse Programs, 
  Vermont Department of Health, St. Albans, Vermont..............    12
DesLauriers, Peter, Chair, St. Albans City Crime Task Force......    14
Holmes, Fred, M.D., Pediatrician and Youth Advocate, St. Albans, 
  Vermont........................................................     9
Manahan, Martin, Mayor, City of St. Albans, Vermont..............     4
Taylor, Gary L., Chief of Police, St. Albans City Police 
  Department.....................................................     6
Welch, Hon. Peter, A Representative in Congress from the State of 
  Vermont........................................................     3

                       SUBMISSIONS FOR THE RECORD

Baker, Angela S., Division of Alcohol and Drug Abuse Programs, 
  Vermont Department of Health, St. Albans, Vermont, statement...    23
Coutts, Jim, Executive Director, Franklin County Senior Center, 
  St. Albans, Vermont, statement.................................    27
DesLauriers, Peter, Chair, St. Albans City Crime Task Force, St. 
  Albans, Vermont, statement.....................................    28
Dream Program, Inc., Michael C. Loner, Executive Director, 
  Winooski, Vermont, statement and attachment....................    31
Holmes, Fred, M.D., Pediatrician and Youth Advocate, St. Albans, 
  Vermont........................................................    37
King, Christina M., Director, Swanton Teen Center, Swanton, 
  Vermont, letter................................................    41
Lafortune, Dorothy, Biddeford, Maine, statement and attacment....    44
LeBoeuf, Patricia, Vermont, letter...............................    48
Manahan, Martin, Mayor, City of St. Albans, Vermont, statement...    51
Miller, Marie Luise, Farmington, New Hampshire, statement and 
  attachment.....................................................    53
Perry, Albert, State Representative, Richford, Vermont, statement    56
Paverman, Dana, Director of Quality and Substance Abuse Programs, 
  Howard Center, South Burlington, Vermont, letter...............    58
Taylor, Gary L., Chief of Police, St. Albans City Police 
  Department, statement..........................................    59
Troidi, Captain Dan, Commander of Troop A, Vermont State Police 
  Department of Public Safety, St. Albans, Vermont, statement....    68
Vermont Association of Court Diversion Programs, Willa Farrell, 
  Executive Director, St. Middlebury, Vermont, statement.........    71
Welch, Hon. Peter, A Representative in Congress from the State of 
  Vermont, statement.............................................    73


    COMMUNITY-BASED SOLUTIONS TO DRUG-RELATED CRIME IN RURAL AMERICA

                              ----------                              


                        FRIDAY, DECEMBER 5, 2008

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
City Hall, 100 North Main Street, St. Albans, Vermont, Hon. 
Patrick J. Leahy, Chairman of the Committee, presiding.
    Present: Senator Leahy.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. The Senate Judiciary 
Committee will be in order.
    Somebody asked me earlier about this gavel, and all Senate 
Chairmen get a gavel. But this was back when I was first 
Chairman of a small Subcommittee many, many years ago, and our 
oldest son was in shop class, and he made that for me. I have 
another gavel, a huge one, that the Horrigan family gave me 
that they had made for me when I became Chairman of the 
Agriculture Committee. But it is so huge that security will not 
let you take it on the airplane.
    [Laughter.]
    Chairman Leahy. Thank you for being here. This is the 
second time the Senate Judiciary Committee has been in Vermont 
in the last year. Now we are going to hear from St. Albans 
about this community's efforts to combat the persistent 
problems of drug-related crime in rural America. And I think in 
Vermont we have had this civic-minded, all-hands-on-deck 
experience in dealing with drug-related crime in rural areas.
    The reason I have had these two hearings--we have a lot of 
hearings in Washington to see what is going on in Los Angeles 
or in New York or Chicago or Miami, places like that. Everybody 
comes in and shows up, and they do have problems, and they are 
significant. What I have tried to do is demonstrate to the 
Committee--and this hearing transcript will be available to all 
Republicans and Democrats on the Committee, as the Rutland one 
was, to say that in rural areas, small cities, small towns, we 
have problems that are very unique. And it is not just a law 
enforcement problem, and it is not just a school problem or 
anybody else. This is a lot different than when I was a young 
State's attorney in Chittenden County. Things have changed 
considerably. But what I am seeing, which is very, very good, 
is that communities like St. Albans are fighting back, they are 
coming together, they are finding innovative, community-based 
solutions. I want to be able to show that. If somebody has got 
a drug problem in rural North Dakota or Mississippi or 
elsewhere, they can learn from this.
    Of course, law enforcement has been and continues to be 
central to combating the scourge of drugs, and there needs to 
be not only State and local but the help of the Federal 
authorities. And I compliment all those in law enforcement who 
are here. There is not a law enforcement agency in this State, 
when my office has called, that has not responded, and 
responded well. But then we also know--and I think law 
enforcement would tell you this first--that you have to have 
community-based solutions. You cannot just ask the police to do 
this alone. We have got to work on it together.
    Crime in St. Albans and here in Franklin County has 
increased significantly in recent years; much of it has been 
drug-related. The reports I have received from the police and 
others show burglaries have gone up sharply, and many of these 
break-ins appear to be the result of drug users looking for 
money or drugs to feed their addiction. We are seeing too many 
armed robberies.
    I see former State's Attorney Ron Kilburn in the audience. 
This is a lot different than when he and I were co-State's 
attorneys here.
    We see people becoming addicted to prescription painkillers 
like Oxycontin and also to traditional drugs like cocaine and 
heroin. What I find very disturbing is the fact that more and 
more of our children are turning to these drugs at an early 
age. That has to frighten all of us, whether as parents or 
grandparents or just members of the community.
    But the good news is that St. Albans, like other Vermont 
cities, is responding to this. Recently the Drug Enforcement 
Administration assigned a full-time investigator to Vermont 
focusing exclusively on the drug diversion problem, where 
prescription drugs that started out legally end up in wrong 
hands. Just yesterday, State authorities held a statewide 
conference for investigators focusing on this.
    But we have also been stretched thin in law enforcement 
during the past 8 years. There have been continuous cuts in 
Federal funding. Time and again, our State and local law 
enforcement officers like the Vermont State Police and the St. 
Albans Police Department have been unable to fill vacancies and 
get the equipment they need.
    This trend is unacceptable. On Monday, I am going to be 
meeting with the new Attorney General-designate, Eric Holder, 
and I am going to talk to him, as I have with President-elect 
Obama, about the needs of law enforcement, especially in areas 
where we are stretched thin, where we have to rely on 
communities coming together. I want to see money restored to 
the COPS and Byrne grant programs. I want to bring back the 
Crime-Free Rural States grant program. These are things that I 
believe in very strongly.
    Now, police chiefs around the country and around Vermont 
have told me we cannot arrest our way out of this problem, and 
I believe that is true. But let us find out how we can work 
better together.
    I think the best way to prevent crime is often to provide 
young people with opportunities and constructive things to do 
to keep them away from drugs and crime altogether. And if young 
people do get involved with drugs, many times treatment might 
be the better thing to do. Unfortunately, in the last 8 years, 
we have seen money being diverted to other parts of the world 
and money for these treatment programs has been cut. I think 
that has been a mistake. I think we pay more in the long run. 
It is far better to spend the money up front than try to spend 
five times that amount of money later on.
    We will hear from community leaders like Dr. Holmes and Ms. 
Baker and former Mayor DesLauriers, who are working 
collaboratively to do this. But our first witnesses, of course, 
will be my colleague in the House of Representatives, Peter 
Welch, who has been a friend for so many years. We worked 
together when he was in the State legislature. We have this 
thing where we make sure that anything involving Vermont, the 
three members of the delegation are brought together. He will 
be followed by Mayor Manahan. I have to make sure I get these 
Irish names right.
    Peter, go ahead.

  STATEMENT OF HON. PETER WELCH, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VERMONT

    Mr. Welch. Thank you, Senator Leahy. It is really terrific 
to have the Senate Judiciary Committee here in St. Albans on 
this incredibly important topic.
    Also, it is very exciting. I just want to make a comment to 
the people here. As we all know, the extraordinary economic 
challenges that we face in Washington are rippling into the 
communities. But even as we face those, if we are going to be 
ultimately successful, it boils down to what can we do in our 
communities to make them safe, to make them secure, to make 
them good places to raise your family, and to do your work. And 
this epidemic of drug-related crime is very threatening. And as 
excited as I am to have the United States Senate here, I 
suspect that you would join me in being really thrilled that we 
have such an incredible turnout of folks from St. Albans, 
because in the end, whatever it is that we do in Washington is 
helpful perhaps, we hope, but the real hard work has to be done 
by local law enforcement, by local families, by folks who are 
willing to work hard with kids who are having hard times and 
have the ability through their example to show them another 
way.
    The goal of our hearing today, as I understand it, is less 
to focus on the problem as it is to focus on solutions.
    What are the practical steps that we can take and what is 
the information that you can get from the witnesses today that 
will help you as you work with the Obama administration? And I 
think it is very fortunate. We have got this new 
administration. There is a lot of excitement about taking a 
fresh look at how we address some of our long-term problems. 
And within a position as you are, chairing the Senate Judiciary 
Committee, meeting, as you will be, with the Attorney General-
designate, that is going to give us a real pathway to the 
highest levels of policy. And bottom line, what we ultimately 
want to do is take the steps we can to protect our communities.
    So I appreciate the work that you are doing, and I 
appreciate the opportunity to work with you as your partner on 
the House side. So thank you, Senator Leahy.
    [The prepared statement of Mr. Welch appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you, and especially with your 
position on the Rules Committee, you have already been 
extremely helpful. I think you have found, as I have, that 
sometimes we have to break through and remind some of our 
colleagues that there is rural America. When they think of a 
small suburb as being 600,000 people, we have to remind them 
that is the size of our State. But if you are being 
burglarized, if you are having a problem, if you have a child 
and you are trying to find help for their drug addiction, it 
hurts just as much whether you are in a small town or a big 
city.
    Mr. Mayor, you have been mayor, I believe, 3 years. Am I 
correct?
    Mr. Manahan. That is true.
    Chairman Leahy. And I know you were formerly a council 
member. I think that is probably where we first met.
    Mr. Manahan. Yes.
    Chairman Leahy. Of course, you have been in the business 
community, a sales manager at Handy Pontiac Cadillac-Buick-GMC 
for years.
    Mr. Manahan. For now.
    Chairman Leahy. For now. I am not trying to give you an ad, 
but I mention all that because your roots are deep in the 
community. Please go ahead, sir.

 STATEMENT OF HON. MARTIN MANAHAN, MAYOR, CITY OF ST. ALBANS, 
                            VERMONT

    Mr. Manahan. I appreciate that. I would like to thank 
Chairman Leahy and the other members of the Senate Judiciary 
Committee for allowing St. Albans City the opportunity to host 
this hearing.
    As the Senator said earlier, I have had the honor of 
serving as mayor of the City of St. Albans since March of 2006 
after serving 5 years on the City Council. I am one of eight 
children of John and Teresa Manahan that was born and raised in 
St. Albans City. I have been married to my wife Lisa for 20 
years, and we have raised our four children here as well. We 
chose to raise our family in this community to benefit from the 
same quality of life that it offered my wife and I as children. 
However, over the last several years, that quality of life has 
been challenged by the increasing crime in our community.
    I feel that there are a number of reasons for the increased 
crime trend, not the least of which is prescription drug abuse 
amongst our youth. We have experienced an alarming trend of 
property crimes that can be directly associated with illicit 
drug use within our community. We have taken a number of steps 
to combat this criminal element within our community.
    In 2005 we hired Gary Taylor as our police chief following 
an extensive nationwide search. Since that time we have 
enhanced our police department dramatically. We have created a 
pay grade system that allows us to hire seasoned officers and 
pay them commensurate to their experience. We recently 
negotiated a 10-percent base pay increase with the police 
department. We now have the ability to offer sign-on bonuses 
which allows us to be much more competitive and attractive to 
experienced police officers as opposed to a feeder system to 
larger departments throughout Vermont, which has been the case 
of the past number of years.
    We have worked very closely with the Vermont State Police 
and the Vermont Drug Task Force which has allowed our officers 
to gain experience needed to deal with the drug activity that 
we are now experiencing.
    We have recently given the Police Department permission to 
acquire Tasers, through an equipment exchange, as a form of 
less than lethal protection. We have been criticized for 
bringing the fact that St. Albans has one of the highest crime 
rates per capita in the State of Vermont to the forefront of 
discussions in our community. We do not have a monopoly on drug 
crimes; however, we are one of the few communities that are 
acknowledging the issue and facing it head on. We have held two 
public forums dealing with the crime within our community over 
the last year and half, both of which were attended by over 150 
community members. I feel that we had a choice: ignore the 
problem and hope it disappeared or deal with it directly and 
make it known that St. Albans City was not going to let this 
criminal element steal our quality of life.
    We have had community members step forward and create a 
very successful Neighborhood Watch program as well as a 
Business Watch program throughout the city. We have had 
numerous members step up and serve on different committees such 
as the Crime Task Force that I appointed to review how we 
provide public safety as a whole to our community with the goal 
of providing a more efficient product. We are currently 
budgeted for 19 police officers while analysis of comparable 
communities suggests we should have a force of 24 officers.
    There are a number of ways to deal with the crime. We as a 
city government have the task of dealing with it throughout our 
police efforts. It is a difficult balance to provide the police 
protection needed for our citizens while at the same time not 
overburdening them with property taxes. We have been very 
fiducially responsible in our efforts to accomplish this. So 
you can imagine how frustrating it is to us while in the midst 
of dealing with the criminal element, we also have to deal with 
the closure of the Northwest Correctional Facility. We will now 
be forced to transport individuals that are arrested in our 
community to Chittenden County or even perhaps Newport or St. 
Johnsbury. Over the last year we had approximately 150 lodgings 
as well as 50 detox lodgings. The closing of this jail will now 
force us to take officers that are needed on the street away 
from our community for up to 4 hours per shift, which in turn 
will cause us to call officers in at a much higher rate of pay. 
So while we are trying to be sound fiduciary agents for our 
community, we are being delivered a body blow by the State of 
Vermont by the changing of this prison to an all-women's 
facility. Keeping in mind that changing this facility to a 
women's facility is not only going to create hardship on our 
police department, but is also going to create additional 
hardship on other social services that are provided within our 
community.
    So how do I feel we should approach the problems? First and 
foremost, we need to replace illicit activities with thriving 
businesses. The best opportunity for increasing investment 
opportunities in the city is to complete the Federal Street 
Multimodal Connector. This long envisioned project would serve 
as a catalyst for downtown revitalization and help attract 
families, professionals, and employers to this area. We also 
offer a number of unique opportunities with our proximity to 
the Canadian border as well as Interstate 89 and our state-of-
the-art Tech Center located at the high school. This would also 
allow our large historical homes to be maintained as single-
family homes as opposed as being split into apartments.
    On another front. I feel we should require pharmaceutical 
companies that are profiting from this illicit prescription 
drug use amongst our youth to create a fund that would allow 
communities such as ours to apply for those funds to help fight 
as well as rehabilitate the drug offenders.
    St. Albans will continue to fight this battle and 
ultimately be known as the community that faced up to the drug 
challenge and won because we have members of our community that 
are not allowing our community to fall prey to this illicit 
criminal activity. However, this fight would be much easier 
with the support from not only the State but the Federal 
Government through the efforts I have outlined.
    Thank you again for this opportunity to speak before you.
    [The prepared statement of Mr. Manahan appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you very much, and I know both 
you and Congressman Welch have other places you have to go. You 
mentioned you have been married for 20 years. In our family, we 
call you a newlywed.
    [Laughter.]
    Chairman Leahy. Next year, Marcelle and I will celebrate 
our 47th wedding anniversary.
    Thank you very much.
    Mr. Manahan. Thank you.
    Chairman Leahy. Peter, thank you
    Mr. Welch. Thank you, Senator.
    Chairman Leahy. The first witness will be Chief Gary 
Taylor, Chief of Police for the St. Albans City Police 
Department. He has been in law enforcement since 1977. Is that 
right, Chief?
    Chief Taylor. Yes, sir.
    Chairman Leahy. He brought his decades of law enforcement 
experience here in 2005. He had served 14 years in the Criminal 
Division, commander of the Essex Police Department, associate 
degree in criminal justice from the Community College of 
Vermont, bachelor's degree with a concentration in criminal 
justice and management from Johnson State College.
    Please go ahead, Chief.

 STATEMENT OF GARY L. TAYLOR, CHIEF OF POLICE, ST. ALBANS CITY 
             POLICE DEPARTMENT, ST. ALBANS, VERMONT

    Chief Taylor. Thank you. Good morning, Senator, and thank 
you for the opportunity to speak here before you today.
    I have been the St. Albans City Police Chief since 2005 
after having spent over 28 years in law enforcement in 
Chittenden County, just 20 minutes south of our community. My 
wife and I have lived in St. Albans since 1986. We raised our 
children in this community, and I was very familiar with the 
community issues before I became the police chief. The quality 
of life here in St. Albans and throughout Vermont has always 
been a key consideration about where I as a police officer, a 
parent, and a citizen have chosen to live and work. The 
proliferation of drug use and the related violent crime in our 
community has challenged the quality of life in our community 
and nearly overwhelmed our law enforcement resources.
    Violent crime trends in the city: Over the past 7 years, we 
have seen an overall increase of 36 percent in police calls for 
service; an 87-percent increase in property crimes; a 125-
percent increase in assaults and robberies; and a 186-percent 
increase in drug investigations and search warrants.
    It is abundantly clear that we are experiencing a dramatic 
increase in criminal violence, illicit drug activity, property 
crimes associated with illicit drug activity and use, as well 
as ``gang-like'' activity here in St. Albans City.
    Historically, Franklin County has seen little organized 
criminal drug enforcement and intervention efforts. Much of 
this can be attributed to the minimal law enforcement presence 
throughout the county. We are located just south of Montreal, 
an international border, as you know, and just to the east of 
New York. Both of those areas are traditionally source areas 
for us.
    Shared intelligence gathering with Chittenden County police 
agencies indicates that Chittenden County presently has the 
largest number of drug investigators and drug enforcement 
operations in the State. These efforts have pushed many of the 
known drug dealers into the outlying areas that have easy 
access and short commutes to Chittenden County. The Burlington 
Police Department has specifically identified several of our 
recent drug-dealing arrivals as having formerly been located 
and operating in their city.
    Cocaine, both powder and rock--or crack cocaine--marijuana, 
and diverted prescription drugs are readily available 
throughout our community.
    Out-of-State urban drug dealers are arriving with alarming 
frequency, and the resources of the police department are 
stretched to its limits.
    For the past 2 years, there has been a number of unsettling 
reports of attempted quasi-gang organization efforts in St. 
Albans. We see that in the form of branding or flagging, and we 
saw a lot of that activity in our face here in the spring of 
last year.
    In a very large crack cocaine investigation in January and 
February 2007, several males from New York City established a 
crack house three doors from the St. Albans City Police 
Department. They actually parked in our parking lot to walk to 
the drug house.
    We are working hand in hand with our law enforcement 
partners in the region, none more so than the Vermont State 
Police who have committed countless man-hours and resources to 
helping us address both the violent crime and criminal drug 
issues in our city. It is a collaborative effort with all of 
the law enforcement agencies, the sheriff's departments in both 
Grand Isle and Franklin Counties, Swanton Village Police 
Department, St. Albans City Police Department, and the Vermont 
State Police. We continue to receive cooperation from the U.S. 
Attorney's Office in cases that are appropriate.
    We look forward to the addition of an alternatively funded, 
full-time drug investigator to deploy with other Drug Task 
Force members to attack the illicit drug problem in our area. 
This requires me to plead with you not to allow further erosion 
of the Byrne Grant funding that we so desperately need in order 
for our State to fund the very limited joint investigative 
resources that are specifically dedicated to criminal drug 
enforcement efforts in our State. The Byrne Justice Assistance 
Grant Program, which local municipalities throughout the State 
and region have relied upon to keep control of their streets, 
is but a fraction of what is needed and what should be 
allocated as we continue to cope with both local and interstate 
illegal activities. The Vermont Drug Task Force initiative has 
a demonstrated and proven track record of success, and I fear 
that further parceling of those funds may undermine the very 
existence of that program.
    We have launched an aggressive Neighborhood Watch program 
here in the city. We have held public forums. We created a 
Prescription Drug Take-Back Program that started in June, and 
as of today we have taken back more than 15,000 prescription 
pills.
    In June 2008 we held a Community Graffiti Clean-Up Day that 
was followed by a community cookout, and 52 of our citizens 
showed up to work hand in hand with the police and other people 
here in the city to clean up ten different sites.
    But law enforcement and prevention programs are only as 
successful as the funding that is made available to pay for 
them and, unfortunately, the funding burden is falling more and 
more on the local municipalities.
    Thank you.
    [The prepared statement of Chief Taylor appears as a 
submission for the record.]
    Chairman Leahy. Chief, thank you. And the funding matter is 
one that we are going to have the key staff and the Senate 
Judiciary Committee look at it because I am very, very worried 
that we are being penny-wise, pound-foolish, because we cut it 
out and then we end up having far greater costs, societal and 
otherwise. All your testimony will be part of our permanent 
record and will be shared with the other members of the 
Committee.
    I think what you said about the parking lot, I guarantee 
you that is going to be a matter of some discussion among 
Senators. And, again, most of us look at this not as a 
Republican or Democratic matter. We look at it as something 
that affects all our communities. So thank you.
    Dr. Fred Holmes is a pediatrician--you have been practicing 
here since 1972--a local leader in providing drug treatment and 
therapy to children suffering from addiction, particularly 
prescription drug abuse. Dr. Holmes' reputation goes way beyond 
St. Albans. I certainly have read, approvingly, of many of the 
things you have done, Doctor. You devote half of your practice 
to helping teens and young adults kick their Oxycontin 
addictions, one of the most frightening things we see with 
young people. He has been a strong advocate for education-based 
prevention efforts, treatment for young people as a long-term 
solution to the problems of crime and drugs. He received his 
Bachelor of Science from Rensselaer Polytechnic Institute, his 
M.D. from the University of Kentucky College of Medicine.
    Incidentally, normally when we hold these hearings, we 
swear the witnesses in. I see no need to do that. We are family 
here. And as Congressman Welch pointed out when he came in, 
look around this room. People would not be here if they did not 
care.
    Dr. Holmes.

    STATEMENT OF FRED HOLMES, M.D., PEDIATRICIAN AND YOUTH 
                 ADVOCATE, ST. ALBANS, VERMONT

    Dr. Holmes. Thank you very much.
    On Wednesday, May 3, 2006, I was sitting in my office. I 
had been in practice for 34 years, and a patient I had cared 
for since birth walked in and asked me if he could please have 
``some of that medicine'' so he wouldn't do pills. He had just 
completed a stay at Phoenix House, and at that point in time, I 
did not even know what a pill problem was. I did not know what 
the medication was, multiple phone calls around the State, 
nobody could answer the question, answer his question.
    But what I did do is immediately realize that for the 
previous 4 years while I had been going to special ed meetings 
at BFA, he had been snorting 40 Oxy's a day--four 80s a day. He 
left, came back to my office a couple of weeks ago having just 
finished a stay in jail and again asked me, ``If I was to start 
using, could I get some of those pills? ''
    It was quite a rude awakening because I did not think I 
could possibly be that naive. But after several months of 
training, particularly with Maple Leaf, Todd Mandell, Julie 
Rice, the Howard Center, I obtained my license to prescribe 
Suboxone and saw my second patient with addiction in October of 
the same year.
    Two years, 400 phone calls, and 100 patients later, I now 
know far more about youngsters struggling with addiction than I 
would have ever thought I needed to know in the first place.
    In my prepared testimony, I have included several patients' 
stories: a 20-year-old who robbed his very successful family 
farm of $15,000.
    Chairman Leahy. Incidentally, all of the prepared testimony 
will be made part of the record in total.
    Dr. Holmes. Thank you. A 17-year-old who, by the time I saw 
him, had been in Woodside 12 times, jail twice.
    Chairman Leahy. At 17?
    Dr. Holmes. At 17, 5 years of DCF custody.
    Two parents sitting in my office, both very successful, 
very concerned. Their salaries were such that they never 
checked their joint bank balance until it was zero because 
their 18-year-old had used their debit card to buy his 
Oxycontin.
    A 19-year-old expecting her first child. I had cared for 
her since birth. She was receiving Subutex from me. She will 
have to deliver through the high-risk clinic at Fletcher Allen, 
and when her baby goes into withdrawal, the baby will begin a 
course of methadone.
    We now care for 10 young women who are single with a child, 
on the Suboxone program for their opiate dependency, who are 
homeless, locked into abusive relationships, no money, no job, 
and the prospects of getting a job are minimal when they have a 
felony conviction.
    At any rate, on average, when I see the youngsters, they 
are 19 years of age when I seek to stop their dependency on 
prescription drugs. The youngest have tried alcohol at 7, 
marijuana at 8, and most are using both by the age of 13. Their 
random pill use begins at 14, dependence at 16, mean 3 years of 
addiction before they seek help. Oxycontin 80s are their drug 
of choice, virtually all use two a day, many as many as six. At 
$100 per pill, habits cost hundreds of dollars a day. The 
aggregate cost for pills for this population, that I take care 
of, is in excess of $20 million. Whether or not they have been 
arrested may well depend on little more than from whom they 
steal; 39 percent have an officer at Probation and Parole, and 
one-third come to see me already appropriately treated with 
Suboxone that they ``bought on the street.''
    Mac's quick stop, Pie in the Sky, Welden Theater, Champlain 
Farms, the health clinic in Northfield, Hodgdon Brothers, 
Quiznos, many catalytic converters, and multiple homes 
throughout Swanton and down by the bay are all crime episodes 
discussed in my office, frequently by the perpetrators. I now 
have patients who have been beaten, robbed frequently, and 
stabbed. Some visit my office with an ankle bracelet.
    Ours is a very powerful, wonderful community--it has been 
mine for 36\1/2\ years--where we all work well together and 
refer back and forth on a first-name basis. These are not 
``those kids.'' These are not ``pill heads.'' These are our 
kids. They are not bad kids. Even the relatively few that I see 
are good kids who made painfully naive bad choices when they 
knew no better. On average, they start pills at 14. They then 
knew nothing about addiction, and they certainly did not plan 
on losing their adolescence trying to avoid getting ``pill 
sick,'' always in search of that magic ``first two-pill high,'' 
or in jail. And, distressingly, the recent change to IV pill 
use in this community will probably lead to the first 
fatalities.
    My thoughts on the problem: First of all, days like today, 
conversation. The people in the community getting together to 
share information in public so that the public will know what 
it is that we are talking about.
    All of us who work together should know what each of us has 
to offer: prevention, education, treatment, and law 
enforcement, and include a consideration for us all in every 
conversation.
    Education. Don't smoke. Look both ways before you cross the 
street. Don't drink and drive. Pills are bad. All of this has 
to be taught to our children before the 4th grade.
    Then, finally, I would propose a big fat check from you, 
sir, to Winnie at the Howard Center.
    [Laughter.]
    Dr. Holmes. What this community needs desperately is a 
multidisciplinary, single-site center to address substance 
abuse. We are woefully ill-equipped to address this problem. We 
are practicing what I call ``Whack-a-Mole'' health care. We are 
constantly chasing our tails, playing catch-up, and we get 
together to talk only in response to the new bigger crises or 
when you are coming to town.
    Even with close collaboration between Probation and Parole, 
Howard Center, Gary, Angela, and myself, I cannot even begin to 
appropriately address the needs of a teenager whose struggles 
with addiction have repeatedly led him through the courts and 
jail. The case management and surveillance piece in my office 
alone is more than we can do appropriately.
    I well know that within the world of pediatrics, the 
algorithms of the UVM programs like ILEHP and the VCHIP 
program, which I know you know about, would bring to the 
community a structure, a model for an interdisciplinary 
treatment proposal with guidelines and quality control that 
would make things much easier for us.
    Thank you very much.
    [The prepared statement of Dr. Holmes appears as a 
submission for the record.]
    Chairman Leahy. Thank you. You know, Doctor, you talk about 
having the dialogue. I look around this room and, again, it is 
remarkable. When we talked about doing this hearing, we were 
wondering just what the reaction might be. You know, Marcelle 
and I are in Vermont almost every week. We are all over the 
State like Congressman Welch and Senator Sanders. We hear 
things, but you get bits here and there. And I think just this 
turnout--let me just tell some of the people who are here. We 
have got the 10th, 11th, 12th grades from Bellows Free Academy, 
the history and civic classes, with their teacher, David Clark. 
Would those students raise their hands? They are here.
    Of course, the Commissioner of Public Safety, Tom 
Tremblay--I was talking with him earlier--is here. Major Tom 
L'Esperance I saw in the back, from the Vermont State Police; 
Captain Tom Nelson from the Vermont State Police; Norm Lague 
from the Border Patrol.
    We have Dr. Edward Haak from Northwest Medical Center; 
Patricia Brett from the Vermont Department of Children and 
Families; Michael Loner, the Executive Director of Dream 
Mentoring; Ethan Ready from Senator Sanders' office; Callan 
Brannigan of Georgia; Gary Gilbert; Fairfax's elected 
officials, Kathy Keenan, Representative-elect Jeff Young; 
Representative-elect Peter Perley, I was talking with him 
earlier. Representative-elect Michel Consejo; Representative-
elect Albert ``Chuck'' Pearce; Senator-elect Randy Brock; of 
course, Senator Sara Kittell. Jim Hughes, the State's attorney 
of Franklin County in the back. I often tell Jim he has got 
the--I do not know why I ever gave up that job at Chittenden 
County State's attorney, Jim. Peter Hofstetter, the CEO of 
Northwestern Medical Center; Roger Marcoux, the Memorial County 
Sheriff; and as I said, the AP class.
    You know, think of what you have got here. I mean, Doctor, 
this must give you some hope to see the community coming 
together like this. You have painted a very grim--and I happen 
to agree with you in your analysis and respect it, but I think 
this must give you some hope that on a workday like this 
everybody is showing up.
    Dr. Holmes. Oh, it does. And part of the discomfort is that 
I think we all tend to focus so much of our attention on the 
really relatively small number of youngsters who get into 
difficulty. The overwhelming majority do much, much, much 
better. But I have a concern that if we know that at one point 
in time children 18 to 20 number a hundred, come into my 
office, who are abusing prescription drugs, where is the next 
hundred in the pipeline? Are they freshmen or sophomores or 
juniors?
    Chairman Leahy. Exactly, and to what extent does it become 
a snowballing type thing. Growing up--I was born in Montpelier, 
and growing up there, you might see one or two kids get in 
trouble, and everybody might, you know, stay away from them. 
When it starts as something that is a pervasive thing, then you 
see it spreading. I can use the cliche of a cancer spreading, 
but that is really what it is. It is a cancer in the whole 
area. But, again, I have to thank everybody for coming.
    Also, I do not want to embarrass the media who are here, 
but I want to thank them for the fact that they have taken time 
to do this. You know, it is so easy to try to sweep everything 
under the rug, but unless we face up to it, we cannot do it. 
And, again, I cannot emphasize enough the small States--
obviously, I care the most about my own State of Vermont. But 
our Committee is going all over the country on these things, 
and hearings, other Senators are holding hearings all over the 
place because people have overlooked the fact that something 
that we know instinctively, small towns and cities are not 
immune. These are not Norman Rockwell paintings. They are 
personal family tragedies. And those of us who are in a 
position of trust, respect, leadership in the community, we 
have a responsibility to work together to help each other out 
on that.
    We are fortunate today to have Angela Baker with us. She 
has been a prevention specialist with the Vermont Department of 
Health's Division of Alcohol and Drug Abuse Program for the 
past 5 years. Prior to that work, she served as the Director of 
Government Relations and Tobacco Control Programs at the 
American Lung Association of Vermont. She has worked 
extensively in the St. Albans community to develop community-
based and education-based drug prevention programs for 
teenagers. She has advocated for State and Federal funding for 
drug prevention partnerships to help coordinate efforts by 
local physicians and substance abuse counselors. She got her 
bachelor's degree in government and sociology from St. Lawrence 
University, her master's in public administration from the 
University of Vermont.
    Ms. Baker, thank you for taking the time. Please go ahead.

  STATEMENT OF ANGELA S. BAKER, DIVISION OF ALCOHOL AND DRUG 
   ABUSE PROGRAMS, VERMONT DEPARTMENT OF HEALTH, ST. ALBANS, 
                            VERMONT

    Ms. Baker. Good morning. Thank you very much for the 
opportunity to provide this testimony. It is truly a privilege 
to be able to speak to you, and I do so on behalf of all of my 
prevention partners in the community. I would like to thank 
Mayor Manahan, Chief Taylor, Dr. Holmes, and Peter DesLauriers 
for their partnership and collaboration in our ongoing work 
together to address these pressing drug-related issues in our 
community.
    My name is Angela Baker. I live in Fairfax, which is about 
5 miles from here. My husband and I are raising our 9-year-old 
daughter in this community. The work that I do here is 
important to me both professionally and personally as I not 
only work here but I also live here.
    I am a substance abuse prevention consultant for the 
Vermont Department of Health in the Division of Alcohol and 
Drug Abuse Programs. I am one of ten prevention consultants in 
the State. We provide information, training, technical 
assistance, consultation, and community organization. I serve 
both Franklin and Grand Isle and spend a lot of time crossing 
the new Missisquoi Bay Bridge that connects our two counties.
    I want to start my testimony by providing you with two 
examples of how we currently benefit from Federal funding for 
prevention efforts in our area. The first and probably most 
crucial funding source is the Substance Abuse Prevention and 
Treatment block grant from the Substance Abuse and Mental 
Health Services Administration, also known as SAMHSA. This 
grant supports much of Vermont's prevention infrastructure, 
including the ten prevention consultants. This funding enables 
us to work directly within the communities we serve. We provide 
on-the-ground, direct assistance and work to build 
relationships, which is the true foundation of any community 
effort.
    Franklin and Grand Isle Counties also receive Federal 
funding from the Drug-Free Communities Support grant for two 
anti-drug community coalitions. Franklin County Caring 
Communities and the Grand Isle County Clean Team are my 
fundamental partners in prevention, and both coalitions are 
represented in the audience today.
    We know that community-level prevention works best when our 
community members are committed and involved. Our coalitions 
carry out initiatives that are essential to the prevention 
infrastructure, including capacity building and sustainability 
for our prevention efforts.
    Our prevention system also includes early intervention. We 
currently have nine student assistance professionals, also 
known as SAPs, in middle and high schools in Franklin and Grand 
Isle Counties. SAPs provide, among other things, early 
intervention services to identify students with problems and 
referrals to community programs for treatment. By being located 
within the school, SAPs help to build better linkages among 
students, their families, school personnel, and community 
service agencies. The SAPs play a key role in substance abuse 
prevention efforts in our community.
    Education is also an integral part of our prevention 
system. Trainings are frequently held at no cost to our 
community partners to help increase knowledge of the principles 
of prevention and provide tools and resources necessary for 
effective prevention efforts.
    One of the trainings offered, in cooperation with our law 
enforcement partners, is the Drug Impairment Training for 
Educational Professionals, also known as DITEP. This key 
training provides school personnel and others with instruction 
around drug impairment signs and symptoms. It also provides 
information regarding community resources for students who may 
have a problem. This training is provided at no expense by drug 
recognition experts.
    The most important message that I would like to convey to 
you and your Committee today is that community-level prevention 
works. Unfortunately, prevention efforts do not receive nearly 
the same amount of attention, particularly from the media, that 
drug use, crime, and violence receive. However, there are many 
good people on the ground in the trenches doing the important 
and essential work to ensure that our youth are making healthy 
decisions.
    We know that there are many students who are choosing not 
to use substances in our community. According to our 2007 Youth 
Risk Behavior Survey data for Franklin County, 60 percent of 
students have not consumed alcohol in the past 30 days; 70 
percent of students have never smoked a cigarette; 67 percent 
of students have never tried marijuana; and 84 percent reported 
that they have never used a prescription pill that was not 
prescribed to them.
    We know that there is still much work to be done. We 
encourage the Committee to consider the importance of funding 
primary prevention and early intervention efforts. If we can be 
more proactive in our efforts, we can help prevent problems 
before they happen.
    On behalf of my partners in Franklin and Grand Isle 
Counties, I would like to thank you for your consideration of 
my testimony and your support in helping us keep our community 
safe and healthy for our youth and our families.
    [The prepared statement of Ms. Baker appears as a 
submission for the record.]
    Chairman Leahy. Well, thank you, Ms. Baker. As you pointed 
out, with a 9-year-old you also have a personal interest in 
that. You talk about the preventive and the outreach. Of 
course, those are things we also have to have the money for to 
make sure it works. Thank you.
    Ms. Baker. Thank you.
    Chairman Leahy. I want to come back with questions for all 
of you, but I first want to here from Peter DesLauriers, the 
Chair of the St. Albans City Crime Task Force. I think I first 
knew Mr. DesLauriers when he was mayor here from 1994 to 2006. 
He taught science to 7th and 8th graders. Is that correct, 
Peter?
    Mr. DesLauriers. Yes.
    Chairman Leahy. For the past 5 years, he has helped foster 
grassroots community rebuilding efforts to tackle crime and 
drug problems, a strong advocate for education-based drug 
prevention efforts, and please go ahead.

 STATEMENT OF PETER DESLAURIERS, CHAIR, ST. ALBANS CITY CRIME 
                TASK FORCE, ST. ALBANS, VERMONT

    Mr. DesLauriers. Yes, sir. Thank you, Senator Leahy, and 
congratulations. I believe you are reaching a milestone on the 
longest-serving U.S. Senator from Vermont. I want to 
congratulate you on that. It is a point of pride--
    Chairman Leahy. All you have to do is outlive everybody 
else.
    [Laughter.]
    Mr. DesLauriers. Well, that is not easy sometimes.
    I want to welcome you to St. Albans. I also want to welcome 
Congressman Peter Welch, who is doing a marvelous job 
representing our State down in Washington as well. Good things 
are going to happen to the State with the quality of the 
representation that we have down in Washington.
    I want to thank you for making the trip this morning to 
show your interest in the future of our community. Also, thank 
you and welcome to the staff members of the Senate and the 
Senate Judiciary Committee, community leaders, fellow citizens, 
and members of the media.
    As we face a slew of national problems with hope and 
resolve, it is important that we do not ignore our community 
issues, for as President-elect Barack Obama tries to reconcile 
Wall Street with Main Street, it is nice that you remember the 
Elm Streets, the Barlow Streets, and the Messenger Streets, for 
these are the streets on which our children play, we live our 
lives, and we lay our heads. These streets make up our 
community. And on these streets, as you have heard, we 
currently face big-city problems with small-town budgets.
    This community has already responded to the problem on 
several fronts. Through citizen efforts, we have put in place a 
Neighborhood Watch Program, an online Internet community, a 
Citizens Emergency Response Team. We have a Red Flag Book for 
parents, a Task Force on Crime. Numerous community forums on 
the issue have been held. We are exploring the prescription 
drug issue, and we are putting in place a community outreach 
program.
    St. Albans understands that we are in a battle. We are 
fighting for our community and the values that most Americans 
live by and believe in. We are not asking the Federal 
Government to rescue us; we simply want you to help us rescue 
ourselves. True victories are only attained and maintained by 
those with a true stake in the battle. Senator Leahy, we need 
your help, but it is the citizens of St. Albans who will be the 
soldiers in this battle.
    So if the attitude is ``Yes, we can,'' then the question 
must be ``How? ''
    In enforcement, we need more police officers to make St. 
Albans an uncomfortable place to work the drug business. We 
could use funds as we try to organize and equip an Auxiliary 
Community Citizen Surveillance Squad. This would be a group of 
trained citizens who move around the community and record or 
report illegal behaviors. This activity serves two purposes: It 
makes St. Albans a hard place to do illegal activity since no 
one knows who is watching and when; and, more importantly, it 
empowers the citizenship to positively affect their 
surroundings. This feeling of ``I can make a difference'' will 
create longevity to our endeavors. While increased enforcement 
is not the only answer, it is one of the necessary ingredients 
to the full solution.
    We also need consequences for drug-related crimes. What 
would the speed of the average car on Interstate 89 be if every 
speeding ticket written was thrown out of court? When students 
see us enable a poor behavior, they think that we are approving 
it, and this is a dangerous lesson for them to learn.
    Crime knows no boundaries. When St. Albans City drives the 
criminals out of our community--and make no mistake, we will--
and they land in St. Albans Town or Swanton, who has won?
    We need help to entice local communities to join forces and 
drive these thugs out of the State. Physics 101 tells us that 
an object moves easier if it is already in motion. I suspect 
the same is true of drug dealers.
    We have several groups working on the prescription drug 
issue, but it might be beyond local control. We need help in 
this area. Pharmaceutical companies and the medical profession 
must be held responsible for the chemicals that they are 
putting on our streets.
    Education: On the national level, we need to remove the 
pressures of No Child Left Behind. While I do not fault the 
goal of NCLB, I fear that the goals of education have switched 
from one of trying to create good, intelligent citizens to one 
of trying to create good test takers. If we as a school score 
high on our NCAP test but do not adequately address the drug 
issue, we as an institution have not served our community well.
    On the local level, we understand that drug education is 
not a ribbon day or a guest speaker day. Drug education must be 
a recognized part of the everyday curriculum for all of our 
children. We would like funds to develop alternative 
educational plans in our schools to better meet the needs of 
every child, be they challenged or gifted. Bored and 
discouraged students often turn to drugs. Successful students, 
with hope and a vision, are tough customers for drug dealers. 
We must serve all types of intelligences.
    We also need to provide jobs in the area for our young 
people. Currently, when I talk about local jobs with my 
students, someone always mentions a cousin, a friend, or 
neighbor, he does not work, he has got a hot car, he has got 
plenty of money, and he just hangs out on the street. While 
that sounds like the perfect career, I happen to know that his 
cousin is a doper. We need good honest local opportunities for 
our young people. Good jobs offer hope and draw good people to 
our community. It also allows people to work in the community 
where they live rather than be citizens in absentia by living 
here and working in Chittenden County. This builds local pride, 
which is a key factor in community ownership and involvement.
    Together, we can solve these issues, but we must see the 
forest for the trees. This is a great Nation, and it is made up 
of great communities; and if we lose those, we have lost it 
all. I understand national issues are pressing. I do want our 
borders to be safe from terrorists, but I also want my 
grandchildren to be able to walk in Taylor Park without 
watching a drug deal in the bandstand. I do want a solution for 
global warming, but I also want my students to be able to go to 
the school rest room without being offered drugs. I do want 
strong armed forces which will protect us from foreign 
fanatics, but I also want to be able to sleep at night without 
wondering if I should put a gun in my nightstand to protect my 
family from the growing concern of home invasion.
    Senator Leahy, you have long been a friend of St. Albans. 
We owe much to you. And once again we turn to you as Vermont's 
elected gift to the Nation to help us rescue our community. 
Thank you for caring and serving our community, our State, and 
our Nation with compassion, integrity, and pride.
    Thank you, Senator.
    [The prepared statement of Mr. DesLauriers appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much. That means a lot to 
me. But it is not just me. We are all in this together. We are 
blessed to live in a very, very special State, and we choose to 
live here because it is special. But it is also a 
responsibility. It is a very small State in people. That means 
everybody has to pull their load.
    I was thinking, Chief, in your testimony you reported how 
robberies and burglaries have gone up dramatically, not only in 
St. Albans but throughout Franklin County, over the past few 
years, along with assaults and narcotics cases. I will try to 
just kind of summarize.
    Of course, that trend is not unique here. It is not unique 
just to Vermont. Other Senators tell me from around the country 
they are seeing similar trends.
    How much of that would you estimate is drug-related?
    Chief Taylor. Most of it.
    Chairman Leahy. Most of it.
    Chief Taylor. Most of our very serious aggravated assaults 
or robberies are driven by people who are either on the fringes 
or in the full throes of being involved in illegal drug 
trafficking, purchasing, and in some cases, they are coming 
here and actually robbing other drug dealers.
    Chairman Leahy. Would you say that it would be an 
overstatement to say often in those kinds of circumstances 
these are not people who are thinking these things through very 
carefully or what the result of their actions might be? Is that 
correct?
    Chief Taylor. I think that is correct. I think that many of 
these people become victims because of their association with 
these individuals.
    Chairman Leahy. Now, naturally, a lot of what we do--and 
for somebody like myself who spent 8 years in law enforcement, 
and you have spent a lot more years, you know that it has to 
come from State and local for law enforcement. But there also 
has to be a Federal component. Tell me about what could the 
Federal Government do to help.
    Chief Taylor. We received a grant a few years ago through 
the COPS program to put a school resource officer in one of the 
schools. We have three substantial schools in the community. I 
think the COPS grants are really important to us to be able to 
add school resource officers. We have gotten some Federal money 
out of the COPS program for communications improvements. And I 
think that the Byrne grant is absolutely one of the ones that I 
can point to.
    Chairman Leahy. For those who do not understand, the COPS 
program is C-O-P-S, a program to bring additional law 
enforcement into local law enforcement, state law enforcement, 
to get specialists. Sometimes it is a case where you need a 
specialist in a particular area. If the community cannot pay 
for it, this can help do it. The Byrne grant is another, B-Y-R-
N-E, a grant for law enforcement.
    In the past few years, the effort has been made to cut this 
money out. I strongly disagree. I do not want this to sound 
political, and I do not mean it that way--I have said this same 
thing to President Bush and others. If we can spend billions of 
dollars for law enforcement in Iraq, and half the time not know 
what the law enforcement people, the Iraqis are doing with the 
money, a lot of it disappears, why can't we start spending some 
of that money here at home where we really need it and where it 
might do some good and where you have communities and States 
where people actually watch where the money goes?
    And so I am hoping--and one of the recommendations I am 
making to the new President-elect and his administration is to 
get back to these kinds of programs that will go into the local 
areas. Maybe there is not as much money available as before, 
but do it in a way where people know where the money goes. One 
example that is critical in Iraq, thousands of handguns went 
over, and they do not know where they went, until they started 
showing up being used against Americans. I would like to see us 
start spending that money at home.
    Dr. Holmes, you talked about helping teenagers who have 
become addicted to pain medication and other prescription 
drugs. It was interesting just listening to your testimony over 
the course of your career, and I can almost see the bar chart 
going just like this as you talked. I can imagine how 
discouraging in a way that must be to you. How do these 
children start doing this at such a young age? How do they 
start with these drugs at such a young age?
    Dr. Holmes. My impression in conversations with them is 
they do it because everybody else is doing it. I think there is 
a lot of peer pressure. I think there is a lot of wanting to be 
like somebody who is older and they perceive as being more 
important. There is really a very magic little point probably 
around 5th, 6th, 7th grade, at which time somebody offers one 
of these youngsters a pill, and they have seen other kids do 
it. And the thing that probably intrigues me most about these 
conversations is how can we prevent that initial moment of 
experimentation from taking place. Two weeks out on Oxycontin, 
you will be dependent. From then on it is more and more and 
more and more to try to have the same effect, or it is 
continued use to keep from getting sick. And these are concepts 
they do not understand before they try it the first time.
    Chairman Leahy. Well, let us go back to that tipping point. 
In 6th grade, try one, try two. In two weeks you are hooked. 
What do you do to stop the tipping point? That is what I mean, 
because by the time if they are teenagers and they are breaking 
in somewhere, and now it is in Chief Taylor's lap. His thing 
is, okay, we are going to arrest you, we are going to bring you 
to court, and then the criminal justice system takes over.
    I think, Chief, you would be just as happy if that crime 
never happened in the first place and you did not have to 
arrest them in the first place, that they were not motivated to 
be there.
    Doctor, how do we keep them off the tipping point?
    Dr. Holmes. My personal impression is that I did not think 
I was quite so stupid 2 years ago. I have been in the community 
for almost 35 years. I have seen many children a day. I have 
taken care of multiple youngsters for some pretty complicated 
things. So I thought I was a pretty savvy dude at that moment. 
And then all of a sudden I realized that there is this piece 
about this illness that affects children about which I knew 
very, very little, and I can tell you that my compatriots in 
this community now know far less than I do.
    So my impression was that if I did not know it--and I see 
kids and families all the time, and they still do not know it--
that suggests that the community does not know it and that 
these wonderful families, with all their kids, do not know it 
either.
    So the point was through processes like this, meeting with 
Gary and Marty and Angela and Peter--he is being quiet--and all 
the things that we have done over the last couple years is 
really public education. It is public awareness. Let them 
understand what is going on. We have Neighborhood Watch, we 
have Graffiti Watch. I think we should have Kid Watch.
    I sit in my office, and people are constantly telling me 
where the drug deals are taking place in this community. I can 
tell you the stores in front of which they happen.
    So my initial thought is there has to be an increasing 
public awareness that this is an issue within our community. 
And, again, these are not bad kids. These are good kids who 
make very poor choices for all the wrong reasons.
    Chairman Leahy. This is the thing, you say they are not bad 
kids. Again, I do not mean this as old war stories being a 
prosecutor, but I remember so many times seeing kids come into 
court on things that are going to--charges that are going to be 
an albatross around their neck, an anchor around their neck for 
the rest of their lives, and you could always move it back just 
a little bit and say, ``What if? '' What if it had gone this 
direction instead of that direction? And it is always--I mean, 
some of those agonized, Judge Costello and others, in saying, 
``What if? '' And how do you get to that?
    This is the most frustrating thing. I can help get law 
enforcement money. I can help get some of these other things. 
But I just want to make sure that we are doing it so that it is 
somehow integrated. I hope that a lot of people here who sit 
today--I bet you there are a lot of parents saying, ``What do 
you mean my kid is going to be exposed to that? '' It has got 
to be more than as our parents used to tell us, ``Well, if 
everybody else jumped off the cliff, would you jump off the 
cliff, too, just because they were doing it? '' Unfortunately, 
what you are saying is when they do jump off that cliff, they 
do it. Is that correct?
    Dr. Holmes. Part of the difficulty that we have not 
addressed is that amongst this population there is a huge 
number of youngsters who have what we would refer to as ``co-
morbid problems.'' They have learning difficulties, language 
challenges, ADHD, OCD, ODD. They come from perhaps chaotic, 
non-supportive homes. And when they try that first pill, it may 
well be that for the first time in a long time they feel 
better. So there is an element of self-medication that I think 
in some of these youngsters perpetuates their initial 
experimentation with pills.
    Chairman Leahy. Ms. Baker or Mr. DesLauriers, do you want 
to add something to this? Feel free to jump in here. I have 
read all the formal questions. I am more interested in hearing 
what your--
    Ms. Baker. I just want to follow up on Dr. Holmes' point 
about where the tipping point exists and what we can do about 
it. One of the strategies that we are currently working on 
right now through a Strategic Prevention Framework grant is 
implementing a curriculum called ``Protecting You, Protecting 
Me.'' It is a grades 1 through 4 curriculum, because what we 
are hearing frequently from the communities and from Dr. Holmes 
and others is that junior high is too late, middle school is 
too late to try and start educating kids. It needs to start a 
lot earlier.
    So this is a curriculum that builds upon itself. It starts 
in grade 1. The second year they will have one, too, all the 
way up to grade 5 so that they have five consistent years of 
education around substances, and it really is about making 
better choices for themselves. It revolves a lot around brain 
development and how you can make good, positive, healthy 
decisions.
    I think that will make a difference in our community as we 
start introducing that into more of our schools and providing 
that foundation for the youth.
    Chairman Leahy. Ms. Baker, we have so many families, 
especially in today's economy, both parents working, holding 
down jobs, doing extra hours, just trying to make ends meet and 
pay the gasoline bill, the fuel bill, the rent, the mortgage, 
food on the table, and they are stretched thin. But don't we 
also have to be educating the parents at the same time, not 
just the kids? We get the kids a certain period of time they 
are there. In my case, when I was a kid, there was a tough nun 
at the door. You do not leave once you came into class. But 
they are there so you have got them, but how do you get to the 
parents?
    Ms. Baker. That is our biggest challenge, so if you have an 
answer to that, we would like to hear it.
    [Laughter.]
    Chairman Leahy. I was afraid you were going to say that.
    Ms. Baker. Getting parents to the table is our biggest 
challenge, and so what we are really trying to do is this 
community recognizing that there are a lot of other adult 
mentors that exist within the community. As Dr. Holmes has 
said, it takes more than one person to help with that. And so 
there are a lot of stressors on the family, and so recognizing 
that they are our kids and that doing what we can with the 
parents, but also getting the rest of the community to 
recognize that it is important to speak up and say something 
and make sure that our kids are safe and healthy.
    Chairman Leahy. Peter.
    Mr. DesLauriers. I spoke to Dr. Holmes with regard to that, 
and that tipping point, and I agree because from that point on, 
you have a user, and from that point on, there is a market for 
that user. And we have plenty of people willing to move into 
the community and take advantage of that market. So at that 
point, I think that is the area we have to focus. And the 
question is: Why does that child first put the drug into their 
mouth? And I think the answer is actually quite obvious, how to 
stop that. Why does the kid, the student, first want a Big Mac? 
It is because he sees a cartoon character when he is very, very 
young, and Madison Avenue knows how to affect behaviors. They 
do it over and over and over and over again. I think that this 
country did a great job on the anti-smoking, and we affected 
behaviors, and smoking was down when we ran that program.
    Chairman Leahy. Now it is going back up.
    Mr. DesLauriers. Well, it is, but we do not know-
    Chairman Leahy. Especially with young women.
    Mr. DesLauriers. Right, and at this point I do not think we 
are putting the energy into it that we did. You can do things 
that are good that change behaviors, but when you stop, another 
generation is coming. I do not think there is any permanent 
answer to any problem.
    Chairman Leahy. This is not a scientific thing, but I 
thought one of the better programs that got kids involved was 
getting people to use seat belts. So kids were getting in the--
at least we got this anecdotally. Parents would sit down, and 
the kids would say, ``You did not put on your seat belt,'' 
because it had been hammered in at school. But now we are 
seeing somehow the manipulation with the advertising for young 
women. Well, you can control your weight if you smoke these 
cigarettes. It is not quite that blatant. And now we see this 
going on, and with the rising incidence of lung cancer and so 
forth.
    I really feel there is a strong component of that, Ms. 
Baker, as you said, but I think it has to be over and over 
again. And I think--I do not know. Dr. Holmes, what about this? 
We ask our educators to do everything. We ask our educators in 
some ways to do all the things our parents used to do, and I 
want to be fair to them because we are also in a far more 
competitive world today, if you look at high-tech industries 
and everything else and getting kids to learn. But how much can 
we ask of our schools in this area? How much should we ask?
    Dr. Holmes. Why did I get that question?
    [Laughter.]
    Chairman Leahy. Well, I was looking at you. You see, this 
is the beauty of being the Chairman. I do not have to answer 
anything. I just ask the questions.
    Dr. Holmes. That debate has been going on as long as I have 
been in this community and been going to school meetings: What 
is the role of the school? Are they educators? Are they 
surrogate parents? Are they behavior specialists? Where do you 
draw the line? I think that is a huge challenge.
    My personal bias is that fortunately we have schools like 
BFA which, to a certain extent, do serve as surrogate parents 
for some of these youngsters. The youngster that I mentioned 
first in my testimony was receiving outstanding support 
services from BFA and had for years, and we were all clueless. 
We were doing everything we were supposed to do, all the proper 
evaluations, his IEP, I was giving him medication for his ADHD. 
He was obviously taking a stronger medication at home. But none 
of us knew what was going on, and he did not, with all due 
respect, have a family that was in tune to and supportive of 
meeting his needs.
    Chairman Leahy. Does anybody want to add to that?
    Ms. Baker. I think it is really important to note that when 
the school needs help, they reach out, and that we have really 
good school and community relationships with all five of our 
high schools. I spend a lot of time in those schools, as do 
other service providers within the community. So I would say 
that the schools feel supported by the services that do exist 
within this community and real community-level organization.
    Chairman Leahy. I have a lot of other questions, but some 
would be redundant. Can you do this for me? Because we really 
are trying to see--we are going to be revamping some of these 
programs--I have talked with Senators in other committees that 
have jurisdiction, as I do--and try to figure out what is best. 
We are all going to be making far more recommendations to the 
new administration than they could possibly respond to. I want 
to make sure ours are well directed. I have been asked to do a 
lot of things on rural areas, small cities, small towns, my 
perspective there. Others in both parties will be doing the 
same, and I know Congressman Welch has similar kinds of groups 
over in the House of Representatives.
    I know over the years in talking with the President-elect 
about his own children how much he feels about them, and the 
Vice President, Joe Biden, and we have watched his children 
grow up, and we all have these concerns. I think we know there 
is something at stake here.
    Can I ask you to do this, all of you? Feel free after this 
is over, if you think, you know, ``The thing we should have 
said was.  .  .'' send it to me. It will be made part of the 
record. But, more importantly, keep in touch with me and my 
office. You get ideas. If you see something, if you see a 
program going through that I might be supporting and you say, 
you know, ``It may sound great but it is not going to be 
good,'' pick up the phone and call me. I really want it to 
work. My children are grown, but we have grandchildren coming 
up, and I am not sure if I was a young parent--Marcelle and I 
had our children when we were in our 20s. I am not sure what I 
would think, I would be terrified to let them out the door. And 
we all want to protect our young people. We also want to 
protect them so you are not going to have to have the gun in 
your bedside table, we are going to have to--we want to be able 
to protect our family. The chief would probably like to go home 
at night and not get a call at 2 o'clock in the morning where 
they say, ``Hey, Chief, guess what just happened? '' Not all of 
that will ever happen, but we can minimize it.
    I thank you all for taking the time. You have done an 
enormous public service being here today. Thank you.
    [Applause.]
    [Whereupon, at 11:19 a.m., the Committee was adjourned.]
    [Submissions for the record follows.]

    [GRAPHIC] [TIFF OMITTED] 51815.001
    
    [GRAPHIC] [TIFF OMITTED] 51815.002
    
    [GRAPHIC] [TIFF OMITTED] 51815.003
    
    [GRAPHIC] [TIFF OMITTED] 51815.004
    
    [GRAPHIC] [TIFF OMITTED] 51815.005
    
    [GRAPHIC] [TIFF OMITTED] 51815.006
    
    [GRAPHIC] [TIFF OMITTED] 51815.007
    
    [GRAPHIC] [TIFF OMITTED] 51815.008
    
    [GRAPHIC] [TIFF OMITTED] 51815.009
    
    [GRAPHIC] [TIFF OMITTED] 51815.010
    
    [GRAPHIC] [TIFF OMITTED] 51815.011
    
    [GRAPHIC] [TIFF OMITTED] 51815.012
    
    [GRAPHIC] [TIFF OMITTED] 51815.013
    
    [GRAPHIC] [TIFF OMITTED] 51815.014
    
    [GRAPHIC] [TIFF OMITTED] 51815.015
    
    [GRAPHIC] [TIFF OMITTED] 51815.016
    
    [GRAPHIC] [TIFF OMITTED] 51815.017
    
    [GRAPHIC] [TIFF OMITTED] 51815.018
    
    [GRAPHIC] [TIFF OMITTED] 51815.019
    
    [GRAPHIC] [TIFF OMITTED] 51815.020
    
    [GRAPHIC] [TIFF OMITTED] 51815.021
    
    [GRAPHIC] [TIFF OMITTED] 51815.022
    
    [GRAPHIC] [TIFF OMITTED] 51815.023
    
    [GRAPHIC] [TIFF OMITTED] 51815.024
    
    [GRAPHIC] [TIFF OMITTED] 51815.025
    
    [GRAPHIC] [TIFF OMITTED] 51815.026
    
    [GRAPHIC] [TIFF OMITTED] 51815.027
    
    [GRAPHIC] [TIFF OMITTED] 51815.028
    
    [GRAPHIC] [TIFF OMITTED] 51815.029
    
    [GRAPHIC] [TIFF OMITTED] 51815.030
    
    [GRAPHIC] [TIFF OMITTED] 51815.031
    
    [GRAPHIC] [TIFF OMITTED] 51815.032
    
    [GRAPHIC] [TIFF OMITTED] 51815.033
    
    [GRAPHIC] [TIFF OMITTED] 51815.034
    
    [GRAPHIC] [TIFF OMITTED] 51815.035
    
    [GRAPHIC] [TIFF OMITTED] 51815.036
    
    [GRAPHIC] [TIFF OMITTED] 51815.037
    
    [GRAPHIC] [TIFF OMITTED] 51815.038
    
    [GRAPHIC] [TIFF OMITTED] 51815.039
    
    [GRAPHIC] [TIFF OMITTED] 51815.040
    
    [GRAPHIC] [TIFF OMITTED] 51815.041
    
    [GRAPHIC] [TIFF OMITTED] 51815.042
    
    [GRAPHIC] [TIFF OMITTED] 51815.043
    
    [GRAPHIC] [TIFF OMITTED] 51815.044
    
    [GRAPHIC] [TIFF OMITTED] 51815.045
    
    [GRAPHIC] [TIFF OMITTED] 51815.046
    
    [GRAPHIC] [TIFF OMITTED] 51815.047
    
    [GRAPHIC] [TIFF OMITTED] 51815.048
    
    [GRAPHIC] [TIFF OMITTED] 51815.049
    
    [GRAPHIC] [TIFF OMITTED] 51815.050
    
    [GRAPHIC] [TIFF OMITTED] 51815.051
    
    [GRAPHIC] [TIFF OMITTED] 51815.052
    
                                 <all>

</pre></body></html>
